U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                          United States
           Patent and Trademark Office



Status of USPTO Initiatives to Improve
         Patent Timeliness and Quality


                       Final Report No. OIG-11-032-I
                                  September 29, 2011




              FOR PUBLIC RELEASE



                       Office of Audit and Evaluation
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        W ashington. D.C. 2 0 2 30




September 29, 2011

MEMORANDUM FOR:                David Kappos
                               Under Secretary of Commerce for Intellectual Property
                               and Director of the U.S. Patent and Trademark Office



FROM: 	                        RonPrevo~~·
                               Assistant Inspector Ge7e~ Economic
                               and Statistical Program Assessment

SUBJECT: 	                     Status of USPTO Initiatives to Improve Timeliness
                               and Quality
                               Final Report Number OIG-11-032-1

We have attached our final report related to our review ofUSPTO's strategic patent initiatives.
This review, part of the Office oflnspector General's Fiscal Year 2011 audit plan, assessed the
implementation status and evaluation plans of 25 initiatives listed under Strategic Goal 1,
Optimize Patent Quality and Timeliness, in the 20I 0-2015 Strategic Plan. Our report presents
the findings and recommendations of this review, conducted under the authority of the Inspector
General Act of 1978, as amended, and Department Organization Order 10-13, dated August 31,
2006.

We found that USPTO has implemented 15 initiatives and partially implemented the other 10
initiatives we reviewed. However, while USPTO has made progress in implementing the
initiatives, it lacks evaluation plans to assess the effect of these efforts on the overall strategic
goals of improving patent quality and timeliness. Finally, two areas of operation-patent appeals
and preliminary reviews of international applications-warrant further agency attention as it
directs its resources and prioritizes activities. Our report includes three recommendations: (1)
revise the agency's strategic plan to ensure the most critical efforts that support attaining the
strategic patent goals remain in operation, (2) direct relevant operating units to prepare plans and
conduct evaluations of their respective patent initiatives, and (3) examine anew the BPAI process
and the quality and measures of the PCT contracting work.

Your September 21, 2011 , response concurs with our draft report's recommendations and
outlines steps USPTO is taking to address these issues. We also received your technical
comments and made changes as appropriate. In accordance with Department Administrative
Order 213-5, within 60 days of the date of this memorandum, please provide us with an action
plan that responds to all of the report recommendations.

We thank USPTO personnel for the assistance and courtesies extended to my staff during the
review. If you have any further questions or comments about the report, please feel free to
contact me at (202) 482-3052 or Jill Schamberger, Project Manager, at (571) 272-5561 .
Attachment

cc: 	 Robert L. Stoll, Commissioner for Patents, USPTO
      Margaret Focarino, Deputy Commissioner for Patents, USPTO
      Bo Bounkong, Associate Commissioner for Patent Resources and Planning, USPTO
      Frederick R. Schmidt, Associate Commissioner for Patent Information Management,
        USPTO 

      James D. Smith, Chief Administrative Patent Judge, USPTO 

      James T. Moore, Vice Chief Administrative Patent Judge, USPTO 

      Anthony P. Scardino, Chief Financial Officer, USPTO 

      Bruce Kisliuk, Acting Deputy Chief Financial Officer, USPTO 

      Welton Lloyd, Audit Liaison, Office of Planning and Budget, USPTO 

                                       Report In Brief
                                            U.S. Department of Commerce Ofﬁce of Inspector General
                                                                     September 29, 2011

Why We Did This Review                 Status of USPTO Initiatives to Improve Patent Timeliness
Over the past decade the United
States Patent and Trademark Of-
                                       and Quality (OIG-11-032-I)
ﬁce (USPTO) has faced growing
patent pendency rates and increas-
ing backlogs of patent applica-
tions awaiting review. In respond-
                                       What We Found
ing to these challenges, USPTO
issued its 2010–2015 Strategic         This report evaluates the ﬁrst 5 strategic patent objectives, encompassing 25 initiatives speciﬁcally related
Plan in September 2010.                to critical activities within the patent process. We found that, of these 25 initiatives, USPTO has fully
                                       implemented 15 and partially implemented the other 10 initiatives. However, while the agency has made
The plan’s ﬁrst goal is to “Opti-      progress in implementing the initiatives, it lacks evaluation plans to assess the effect of these efforts on the
mize Patent Quality and Timeli-        overall strategic goals of improving patent quality and timeliness.
ness”—by reducing (1) overall
patent pendency times to 10            •	    USPTO Has Taken Steps to Implement Its Strategic Patent Initiatives; However, Timelines to
months for a ﬁrst ofﬁce action and           Achieve Strategic Goals Have Required Extensions. The agency has assigned high-level managers
20 months total patent pendency              to lead individual initiatives, all of which have an action plan toward implementation. However, the
(by 2014 and 2015 respectively)              agency has implemented its strategic plan in a ﬁscal environment different from its original budget
and (2) the number of patent                 requests. USPTO has now placed on hold or scaled back some of the 25 initiatives—and stated it
applications awaiting examiner               will not meet its pendency and backlog goals. In the process, it has changed the date to reduce ﬁrst
action by almost 50 percent.                 action pendency to 10 months from 2014 to 2015 and moved the date to reduce ﬁnal pendency to
                                             20 months from 2015 to 2016.
The objectives of our review
were to assess the implementa-         •	    USPTO Lacks Plans to Evaluate Initiatives and Their Effects on Patent Quality and Timeliness. The
tion status of the initiatives under         lack of a formal evaluation process makes it difﬁcult for USPTO to determine whether to attribute
Strategic Goal 1, Optimize Patent            outcomes to speciﬁc initiatives—or why goals are, or are not, being met. Such information is vital for
Quality and Timeliness, and to               deciding whether to adopt operational changes to improve the effectiveness of a speciﬁc activity and
assess USPTO’s plans to evaluate             whether or not that activity should receive priority in a constrained budget. Instead, the agency risks
each of these initiatives.                   attributing goal achievement to the wrong initiatives and subsequently misguiding resources toward
                                             less-than-optimal activities. Further, by focusing just on performance measures, it risks deeming each
                                             initiative successful—but still not reducing patent pendency and the backlog of patent applications.
Background
                                       Finally, two areas of operation— Board of Patent Appeals and Interferences (BPAI) patent appeals and the
USPTO’s mission is to foster           method USPTO uses to measure the quality of USPTO contractors’ work for reviews completed under the
innovation, competitiveness, and       Patent Cooperation Treaty (PCT)—warrant further agency attention as it directs its resources and priori-
economic growth, domestically          tizes activities.
and abroad—by delivering high
quality and timely examination
of patent and trademark appli-
cations, guiding domestic and          What We Recommended
international intellectual property
policy, and delivering intellectual    We recommend that the Under Secretary of Commerce for Intellectual Property and Director of USPTO:
property information and education
worldwide—with a highly skilled,       •	    Revise the agency’s strategic plan to ensure the most critical efforts that support attaining the
diverse workforce.                           strategic patent goals remain in operation. Management must make both short- and long-term deci-
                                             sions to prioritize which of the initiatives are critical to USPTO achieving its strategic goals.
Patent operations, which account
for the vast majority of USPTO’s      •	     Direct the relevant operating units to prepare plans for, and conduct, evaluations of the patent initia-
stafﬁng and monetary resources,              tives to assess the effectiveness of the initiative and to guide any decisions related to the continuation,
determine whether inventions                 expansion, or ending of the individual initiatives. Evaluation efforts (e.g., measurable objectives, criti-
claimed in patent applications are           cal success measures linked directly to goals, baseline data, and conditions for full implementation)
new, useful, and non-obvious. The            will assist USPTO in assessing the effects of its patent and other initiatives in achieving its organiza-
timely granting of quality patents           tional goals.
provides inventors with exclusive • 	        Examine anew the BPAI process (and the rate at which it reverses decisions) as well as the quality of
rights to their discoveries and con-         work completed under the PCT contract and the method employed to calculate acceptance measures.
tributes to the strength and vitality        These two areas warrant USPTO’s further attention, as they highlight issues with patent examination
of the U.S. economy.                         quality and efﬁciency.
U.S. Department of Commerce                                                                                                     Final Report

Office of Inspector General                                                                                               September 29, 2011 



 
                                                                  Contents
Introduction ..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 3 

    I.	    USPTO Has Taken Steps to Implement Its Strategic Patent Initiatives; However, 

           Timelines to Achieve Strategic Goals Have Required Extensions ..................................... 3 

    II.	 USPTO Lacks Plans to Evaluate Initiatives and Their Effects on Patent Quality and 

         Timeliness ........................................................................................................................... 4 

    III.	 Activities Related to Certain Initiatives Warrant Further Management Attention ............. 5 

    IV.	 Recommendations ............................................................................................................... 7 

    V.     Summary of Agency Comments and OIG Response .......................................................... 8 

Appendix A: Objectives, Scope, and Methodology........................................................................ 9 

Appendix B: Patent Quality and Timeliness Objectives and Initiatives ....................................... 10 

Appendix C: Response to OIG Draft Report ................................................................................ 12 

U.S. Department of Commerce                                                                            Final Report

Office of Inspector General                                                                      September 29, 2011 



 
                                                  Introduction
The United States Patent and Trademark Office (USPTO), a part of the Department of
Commerce, fosters innovation, competitiveness, and economic growth through the quality and
timely examinations of patent and trademark applications. Patent operations, which account for
the vast majority of USPTO’s staffing and monetary resources, determine whether inventions
claimed in patent applications are new, useful, and non-obvious. The timely granting of quality
patents provides inventors with exclusive rights to their discoveries and contributes to the
strength and vitality of the U.S. economy.

Over the past decade USPTO has faced growing patent
pendency rates and increasing backlogs of patent
                                                                             USPTO’s mission is to foster
applications awaiting review. In responding to these                         innovation, competitiveness and
challenges, USPTO issued its 2010–2015 Strategic Plan                        economic growth, domestically
in September 2010.                                                           and abroad, by delivering high
                                                                             quality and timely examination of
According to the agency, this plan will strengthen its                       patent and trademark applications,
                                                                             guiding domestic and international
capacity, improve the quality of patents and trademarks
                                                                             intellectual property policy, and
issued, and shorten the time it takes for a decision on a                    delivering intellectual property
patent application. The first goal in this blueprint is to                   information and education
optimize patent quality and timeliness. 1 The plan                           worldwide, with a highly skilled,
specifically notes that USPTO will accomplish this goal                      diverse workforce.
when, among other things, the agency reduces (1)
overall patent pendency times to 10 months for a first
office action and 20 months total patent pendency (by 2014 and 2015 respectively) and (2) the
number of patent applications awaiting examiner action by almost 50 percent.

In order to reach its goal to optimize patent quality and timeliness, USPTO developed 6
objectives containing a total of 28 initiatives, ranging from reengineering the patent examiner
production system to using a hiring model that focuses on experienced intellectual property
professionals. USPTO notes that the plan’s success will depend on its ability to manage its
initiatives while adapting to its challenges, including rapid advances in technology; a changing
volume of applications; funding authority to support the agency’s performance; and hiring,
retaining, and training examiners.

The objectives of this review were to assess the implementation status of the initiatives under
Strategic Goal 1, Optimize Patent Quality and Timeliness, and to assess USPTO’s plans to
evaluate each of these initiatives. We focused on the first 5 strategic patent objectives that
encompass 25 initiatives; the sixth strategic patent objective addressing information technology
efforts related to Patent End-to-End efforts is the subject of another OIG review. We obtained
and reviewed relevant agency documents regarding the planned and completed actions to
                                                            
1
  The other mission-focused goals in the strategic plan are to optimize trademark quality and timeliness, and to
provide domestic and global leadership to improve intellectual property policy, protection, and enforcement
worldwide. In addition, there is a management-focused strategic goal to achieve organizational excellence.


                                                          1

 
U.S. Department of Commerce                                                            Final Report

Office of Inspector General                                                      September 29, 2011 



 
implement as well as evaluate each initiative. Additionally, we interviewed appropriate USPTO
officials about its implementation and evaluation efforts. We further assessed the implementation
status and evaluation plans as of March 31, 2011, and received updates on the status in June
2011. We found that, of the 25 initiatives specifically related to critical activities within the
patent process, USPTO has fully implemented 15 and partially implemented the other 10
initiatives. However, while USPTO has made progress in implementing the initiatives, it lacks
evaluation plans to assess the effect of these efforts on the overall strategic goals of improving
patent quality and timeliness. Finally, two areas of operation—patent appeals and preliminary
reviews of international applications—warrant further agency attention as it directs its resources
and prioritizes activities.

Appendix A outlines in further detail the scope and methodology we followed for this review.
Appendix B contains brief descriptions of each of the strategic patent initiatives we reviewed, as
well as the implementation status and information related to evaluations.




                                                2

 
U.S. Department of Commerce                                                                                Final Report

Office of Inspector General                                                                          September 29, 2011 



 
                                                           Findings and Recommendations
I.	        USPTO Has Taken Steps to Implement Its Strategic Patent Initiatives; However,
           Timelines to Achieve Strategic Goals Have Required Extensions

To meet its strategic goal to optimize patent quality and timeliness, USPTO developed 6
strategic objectives comprised of 28 separate initiatives aimed at achieving their respective
objectives. These initiatives all relate to critical activities within the patent process —from the
review of applications to the appeals process to the information technology infrastructure
supporting the work of patent examiners—and span three organizational units within USPTO:
Office of the Commissioner for Patents, the Board of Patent Appeals and Interferences (BPAI),
and the Office of the Chief Information Officer. We reviewed 5 of the strategic objectives and
found that USPTO has implemented 15 of the 25 initiatives that comprise these 5 objectives.
USPTO has partially implemented the remaining 10 initiatives (see table 1). 2 The tables in
appendix B provide brief descriptions, as well as the implementation status, of each of the 25
initiatives.

      Table 1. Strategic Objectives and Implementation Status of Related Initiatives
       (as of March 31, 2011) for USPTO Strategic Goal 1: Optimize Patent Quality
                                     and Timeliness

                                                                                         Status of Initiatives
    Strategic Objective
                                                                                                        Partially
    (Number of Initiatives for Given Objective)                                    Implemented
                                                                                                    Implemented
    Objective 1: Reengineer patent process to increase efficiencies
    and strengthen effectiveness                                                          2               4
    Objective 2: Increase patent application examination capacity                         4               2
    Objective 3: Improve patent pendency and quality by increasing
    international cooperation and work sharing                                            2              2
    Objective 4: Measure and improve patent quality                                       4              0
    Objective 5: Improve appeal and postgrant processes                                   3              2
    Total Initiatives for 5 Strategic Objectives                                          15             10
Sources: USPTO 2010-2015 Strategic Plan, September 2010; DOC OIG analysis of USPTO information

These initiatives cover a wide variety of activities related to USPTO’s operations. For example,
the strategic objective to increase patent application examination capacity includes efforts to hire
approximately 1,000 additional patent examiners and develop a nationwide workforce. The
strategic objective to increase international cooperation and work sharing includes making more
effective use of work completed under the Patent Cooperation Treaty (PCT). Under the PCT,
USPTO receives international applications, each of which requires the preparation of an
international search report and a written opinion on the novelty and industrial applicability of the
application. 3 For greater efficiency, USPTO seeks to maximize examiner reuse of these PCT
                                                            
2
 “Implemented” indicates that the program is operational; “Partially Implemented” indicates that plans are in place
but not all segments of the initiative are operational.
3
   See Patent Cooperation Treaty, art. 15-18, June 19, 1970 as amended; Regulations under the Patent Cooperation
Treaty Rule 43bis.1(a)(i) (2011) (requiring a written opinion on the novelty and industrial applicability of the
application).  

                                                                        3

 
U.S. Department of Commerce                                                                         Final Report

Office of Inspector General                                                                   September 29, 2011 



 
work products in related U.S. applications. Improvements to the appeal and postgrant process
include initiatives to implement process efficiencies and increasing review capacity through the
hiring of judges and patent attorneys, as well as making changes to the organizational structure
of the BPAI.

In moving forward with these 25 initiatives, USPTO has assigned high-level managers to lead
the individual initiatives, and all initiatives have some form of an action plan that maps out the
steps necessary to achieve implementation. For the 10 initiatives that are partially implemented,
the initial timeframes for implementation ranged from fiscal year (FY) 2011 to FY 2014.

USPTO developed its strategic plan for these initiatives based on assumptions it made in its
budget requests. The assumptions derive from a complex relationship among the number of
patent applications filed, the size of the application backlog, the number of patents issued, and
the fees collected in connection with the patent process today that pay for patent applications
filed and examined in prior years. These assumptions included increases in appropriations levels
over time and the enactment of a 15 percent surcharge on certain fees. However, the agency is
implementing its strategic plan in a fiscal environment that differs from what it originally
assumed. USPTO has now placed on hold or scaled back some of the 25 initiatives. 4 In making
these decisions, USPTO stated it will not meet its pendency and backlog goals. In the process,
USPTO has changed the date to reduce first action pendency to 10 months from 2014 to 2015
and moved the date to reduce final pendency to 20 months from 2015 to 2016.

II.	 USPTO Lacks Plans to Evaluate Initiatives and Their Effects on Patent Quality and
     Timeliness

USPTO’s efforts to implement and monitor the 25 strategic patent initiatives we reviewed do not
include plans to evaluate the effectiveness and ultimate success of these initiatives. The U.S.
Government Accountability Office (GAO) and other organizations recommend preparing
evaluation plans that provide a comprehensive approach to mapping out the criteria, data, and
analysis necessary to assess performance and inform relevant stakeholders. 5 Evaluations go
beyond simply collecting and reporting on performance measures, as they also take into
consideration whether the outcomes resulting from an initiative or program are more efficient or
effective compared with other alternatives available. USPTO’s lack of formal evaluation process
makes it difficult to determine whether to attribute outcomes to specific initiatives or why goals
are or are not being met. Such information is vital for making informed decisions as to whether
USPTO must adopt operational changes to improve the effectiveness of a specific activity and
whether or not that activity should receive priority in a constrained budget.

While USPTO has undertaken efforts to plan for and implement the operational aspects of its
strategic patent initiatives, it has not established a systemic foundation to plan for or require
                                                            
4
   Affected initiatives include the hiring of patent examiners; outsourcing PCT work; developing a nationwide 

workforce; using targeted overtime; implementing multitrack examination processes; and implementing 

recommendations on BPAI efficiencies.
 
5
   Relevant publications include “Designing Evaluations,” U.S. General Accounting Office, GAO/PEMD-10.1.4, 

March 1991 (Washington, DC); and “An Evaluation Roadmap for a More Effective Government,” American 

Evaluation Association, September 2010. See Appendix A for more information. 


                                                               4

 
U.S. Department of Commerce                                                                              Final Report

Office of Inspector General                                                                        September 29, 2011 



 
evaluations for each initiative. USPTO established objectives and performance measures for each
of its initiatives and created oversight teams to monitor the progress of their respective
initiatives. However, agency officials stated that USPTO has not developed a separate evaluation
plan for each initiative. 6 Establishing objectives and performance measures alone, however, does
not provide USPTO with the information necessary to make informed programmatic decisions.
Performance measures focus solely on outcomes and do not provide insights as to why an
initiative has accomplished or not accomplished its goals. An effective evaluation process results
in informed decisions, based on clear options, and identified strengths and weaknesses.

USPTO officials noted that the agency cannot measure the impact of each individual initiative on
the overall strategic goals to reduce patent pendency or the backlog of patent applications. While
it is often difficult to isolate individual impacts when conducting evaluations, USPTO should
undertake such efforts. Without knowing what impact a specific initiative has on the agency’s
strategic goals, or a clear understanding of how multiple initiatives affect an outcome, USPTO
risks attributing goal achievement to the wrong initiatives and subsequently misguiding
resources toward less-than-optimal activities. Further, by focusing on performance measures
alone, USPTO risks deeming all initiatives successful as defined by the measures—but still not
achieving the outcome of reducing patent pendency and the backlog of patent applications. As a
result, agency management cannot make informed decisions with regard to how USPTO should
direct resources, nor can the agency assure that it directs those resources to the initiatives and
programs that have the greatest impact on achieving USPTO strategic goals.

III.          Activities Related to Certain Initiatives Warrant Further Management Attention

In the course of conducting this review of USPTO’s strategic patent initiatives, we identified two
areas of concern. The first relates to the growing backlog and pendency for appeals filed with the
Board of Patent Appeals and Interferences (BPAI); the second regards the methods USPTO uses
to measure the quality of USPTO contractors’ work for reviews completed under the Patent
Cooperation Treaty (PCT).

BPAI

USPTO’s BPAI is an administrative law body with the authority to decide on patentability
issues. BPAI will review, upon an applicant’s written appeal, adverse decisions of examiners
upon applications for patents and will determine priority and patentability of invention in
interferences. Between FYs 2005 and 2010, the number of appeals submitted annually to BPAI
more than quadrupled, from approximately 2,800 to 12,600 appeals. During that same time, the
number of pending ex parte 7 appeals awaiting review increased almost 20 times, from about 900
to almost 18,000 pending cases. In the process, the time from when an applicant files an appeal
until BPAI renders a decision increased to almost 2.5 years by the end of FY 2010.


                                                            
6
   Appendix B provides a brief description of each of the patent strategic initiatives, its implementation status, and 

information related to evaluation activities.
 
7
   On or from one party only, usually without notice to or argument from the adverse party—the judge conducted the 

hearing ex parte. See Black’s Law Dictionary (9th ed., 2009).
 

                                                               5

 
U.S. Department of Commerce                                                               Final Report

Office of Inspector General                                                         September 29, 2011 



 
In addition to the growing backlog and pendency rates, the rate at which BPAI reverses decisions
calls into question the quality of the initial patent examination. Over the last 10 years, BPAI has
consistently reversed 25–40 percent of patent examiner decisions brought before it, not including
instances when BPAI has affirmed some parts of the initial decision. The increasing backlog and
pendency faced by BPAI, and its rate of reversing decisions on rejected patent applications, can
lead to delays in the granting of patents. This failure to recognize innovation by denying a patent
application can, in turn, stifle much-needed economic development and job growth.

PCT Contracting

Under the PCT, USPTO receives international applications and must prepare reports regarding
the prior art discovered as well as on the novelty and industrial applicability of the claimed
invention. These reports communicate valuable information to national patent offices such as
USPTO—and could make the application review process more efficient. USPTO, which
currently outsources this activity, has noted potential efficiency gains in having its own patent
examiners reuse the work completed by the contractor. USPTO reviews the contractor’s work to
ensure quality and classifies contractor errors into three levels. Level one and level two errors
occur when USPTO concludes that the contractor improperly determined the novelty, the
inventive step, and/or the industrial applicability of the application. Level three errors arise when
USPTO deems the contractor’s work to be incomplete or inaccurate. The contract states that
acceptable error rates for levels one and two are 5.49 percent or less; no rate is given for level
three errors.

During the course of our review we noted that USPTO’s contractually specified method of
calculating error rates does not comply with standard statistical practices. According to contract
terms, USPTO calculates error rates by dividing the number of errors chargeable to the
contractor (determined from a sample) by the total number of applications completed by the
contractor and received by USPTO. However, standard statistical practices dictate that an error
rate would derive from dividing the number of errors charged to the contractor by the number of
cases in the random sample. As a result, USPTO significantly overstates the quality of the
contractor’s work. In FY 2010, USPTO randomly sampled 300 of the 15,500 PCT applications
for its review—identifying 34 level one and 76 level two errors. As shown in table 2, USPTO did
not receive the level of quality it required but, due to contract specifications, deemed the results
acceptable.

                   Table 2. FY2010 PCT Contractor Quality Calculations

                                                  FY 2010 Error Rate
               Acceptable Error Rate                                       FY 2010 Error Rate
Error Type                                         Calculated Using
                   per Contract                                        as Measured by the Samplea
                                                   Contract Terms
Level one              ≤ 5.49 %                           0.22%              11.33% (+/- 3.6%)
Level two              ≤ 5.49 %                           0.49%              25.33% (+/- 4.9%)
Source: OIG analysis of USPTO data
a
 Error rate calculated at 95% confidence level.



                                                      6
 
U.S. Department of Commerce                                                               Final Report

Office of Inspector General                                                         September 29, 2011 



 
If USPTO hopes to realize efficiencies by having its own patent examiners rely on this work, the
agency must consider how it can better measure, and increase, the quality of the contracting
efforts.

These two areas are integral to USPTO fulfilling its mission. To help direct its resources and
prioritize activities, they warrant further attention from USPTO.

IV.    Recommendations

USPTO has shown its commitment to planning and implementing its strategic patent initiatives.
Once USPTO implements these initiatives, however, it must know whether or not, and why, it
meets its goals. A deliberately planned out evaluation process is critical to demonstrating the
effectiveness of a given initiative. While it may not always be possible to isolate the individual
impacts of an initiative or program on a strategic goal, the evaluation process provides a means
to acknowledge other factors which may have contributed to the change and provides
stakeholders with more comprehensive information about the initiatives and their outcomes.
Therefore, we recommend that the Under Secretary of Commerce for Intellectual Property and
Director of USPTO:

1. 	 Revise the agency’s strategic plan to ensure the most critical efforts that support attaining
     the strategic patent goals remain in operation. If the resources originally planned for the
     operations are no longer available, management must make both short- and long-term
     decisions to prioritize which of the initiatives are critical to USPTO achieving its strategic
     goals.

2. 	 Direct the relevant operating units to prepare plans for, and conduct, evaluations of the
     patent initiatives to assess the effectiveness of the initiative and to guide any decisions
     related to the continuation, expansion, or ending of the individual initiatives. Such
     evaluations should include measurable objectives and critical measures of success, link
     measures directly to goals, contain baseline data, and articulate conditions for full
     implementation. A corporate culture that expects and supports evaluation efforts will assist
     USPTO in assessing the effects of its patent and other initiatives in achieving its
     organizational goals.

3. 	 Examine anew the BPAI process (and the rate at which it reverses decisions) as well as the
     quality of work completed under the PCT contract and the method employed to calculate
     acceptance measures. These two areas warrant USPTO’s further attention, as they highlight
     issues with patent examination quality and efficiency.




                                                  7

 
U.S. Department of Commerce                                                             Final Report

Office of Inspector General                                                       September 29, 2011 



 
V.      Summary of Agency Comments and OIG Response

We received and reviewed USPTO’s response to our draft report. In its official response, USPTO
responded to our recommendations as follows:

     Recommendation 1: USPTO provided background information on its strategic plan and
     process and communicated that it will include a revised strategic plan in its FY 2013 budget
     submission to OMB. Furthermore, USPTO provides a full discussion regarding its limited
     ability to meet strategic plan objectives and schedules due to FY 2011 enacted funding lower
     than the President’s budget submission. This response does not fully address our
     recommendation which requires that, regardless of budgetary conditions, USPTO
     management needs to prioritize resource expenditures on activities which generate the
     greatest return on investment and meet the program objectives—the reduction of patent
     backlog and pendency. We restate our recommendation that USPTO engage in meaningful
     activities to prioritize its strategic plan.

     Recommendation 2: USPTO communicated that they generally agreed with our
     recommendation. In its response, the agency agreed to develop and implement evaluation
     plans of the patent initiatives to include measurable objectives and critical measures of
     success, baseline data, direct linkage of measures to strategic goals, and conditions for full
     implementation. USPTO confirmed that it lacked a formal evaluation process and committed
     to improved process formalization through its documentation.

     Recommendation 3: USPTO agreed to examine the BPAI process and the quality of PCT
     contracting work.

We have modified this final report to address USPTO’s comments and have included the formal
response as appendix C. Separately, the agency provided technical comments, which we have
addressed in the report where appropriate.




                                                 8

 
U.S. Department of Commerce                                                                    Final Report

Office of Inspector General                                                              September 29, 2011 



 
                                       Appendix A: Objectives, Scope, and Methodology
The objectives of this review were to assess (1) the implementation status of each patent quality
and timeliness initiative, including the extent of the implementation and timeframes for
completion, and (2) USPTO’s plans to evaluate each initiative, including whether accurate and
reliable data will be available to determine the impact of the initiatives on pendency, application
backlogs, and quality. We focused our work on the 25 individual initiatives outlined under Goal
1, Optimize Patent Quality and Timeliness, of USPTO’s 2010–2015 Strategic Plan.

To determine the implementation status for each of the initiatives under Goal 1, we obtained and
reviewed relevant agency documents, including project descriptions, action plans, and union
agreements and interviewed appropriate USPTO officials. Further, we developed three categories
to describe the implementation status of each initiative: “Implemented” indicates that all aspects
of the initiative are operational; “Partially Implemented” indicates that plans are in place but not
all segments of the initiative are operational; and “Not Implemented” indicates that USPTO lacks
final plans for the initiative and nothing is operational.

To determine whether USPTO had adequate evaluation plans for each of the initiatives under
Goal 1, we first reviewed relevant evaluation literature and publications from sources including
GAO, the American Evaluation Association, the National Performance Review, the Kellogg
Foundation, 8 and USPTO’s 2010–2015 Strategic Plan. Based upon these reviews, we identified
six key elements for a successful evaluation plan: (1) the purpose and objective of the evaluation
and the questions to answer the objective; (2) well-defined criteria for determining initiative
performance; (3) clearly articulated methodology including sound sampling methods,
determination of appropriate sample size evaluation, and design strategy for comparing pilot
results with other efforts; (4) a plan for obtaining data including type of data, methods of data
collection, and frequency of data collection; (5) a plan for analyzing data and results of the
initiative; and (6) initiative oversight through communication, collaboration, and stakeholder
participation.

We completed an initial assessment of the implementation status and evaluation plans for each
initiative as of March 31, 2011. To ensure we report the implementation status based on the
timeliest information (for the 10 initiatives that were partially implemented), we obtained
updated information from USPTO in June 2011 and updated any information as necessary.

The review was conducted under the authority of the Inspector General Act of 1978, as amended
and Department Organization Order 10-13, dated August 31, 2006. We conducted the evaluation
in accordance with Quality Standards for Inspection and Evaluation, January 2011, issued by the
Council of the Inspectors General on Integrity and Efficiency.



                                                            
8
 Relevant publications include “Designing Evaluations,” U.S. General Accounting Office, GAO/PEMD-10.1.4,
March 1991 (Washington, DC); “W.K. Kellogg Foundation Evaluation Handbook,” W.K. Kellogg Foundation,
January 2004 (Battle Creek, MI); and “An Evaluation Roadmap for a More Effective Government,” American
Evaluation Association, September 2010.

                                                               9

 
U.S. Department of Commerce                                                                                         Final Report

Office of Inspector General                                                                                   September 29, 2011 



 
          Appendix B: Patent Quality and Timeliness Objectives and Initiatives
Our review focused on the 25 patent strategic initiatives, divided among 5 objectives, intended to
aid USPTO in achieving its patent strategic Goal 1 (“Optimize Patent Quality and Timeliness”).
This table provides a brief description of each initiative for the objectives of Goal 1 and its
implementation status. In addition, because USPTO had no formal evaluation plans for each
initiative, we provide information on current activities related to each initiative that can inform
the evaluation process.

                                                                                                                              Evaluation 
                                                                                                            Implementation 
Objective                    Initiative                               Description                                              Related 
                                                                                                                Status 
                                                                                                                              Activities a 
                   Reengineer the patent 
                                                   Revise how patent examiners obtain credit for the 
                   examiner production (count)     work they complete (count system)  
                                                                                                                 FULL                1 
                   system  
                   Prioritize work: green          Implement multitrack process that enables 
                   technology acceleration,        applicants to prioritize their applications, with the 
                                                                                                                PARTIAL              1 
                   project exchange, multitrack    possibility of reducing pendency and/or reducing 
1.Reengineer       customized examination          workload 
  Patent                                           Allow interview between applicant and patent 
                   Institutionalize compact 
                                                   examiner to advance prosecution of the                        FULL                1 
  Process          prosecution initiatives         application and facilitate possible early allowance  
  to Increase                                      Help ensure that patent applications are initially 
  Efficiencies                                     classified properly so they are assigned to the 
                   Reengineer the patent 
  and                                              correct art unit; changes to the classification              PARTIAL              3 
                   classification system           system will also align with the European Patent 
  Strengthen 
                                                   Office 
  Effectiveness    Reengineer the Manual of        Expedite updates and enable practitioners and 
                   Patent Examining Procedure      examiners to find information quickly and get                PARTIAL              3 
                   (MPEP)                          accurate and complete guidance 
                                                   Companion work to upgrading and redesigning 
                   Reengineer the patent           the IT infrastructure, allowing the redesign of the 
                                                                                                                PARTIAL              3 
                   examination process             examination process supported by automated 
                                                   work flow capabilities 
                                                   Recruit candidates from traditional applicant 
                   Hire approximately 1,000 
                                                   pools (recent graduates from science and 
                   examiners in both FY 2011       engineering colleges) and new, such as those with 
                                                                                                                PARTIAL              1 
                   and FY 2012                     prior professional intellectual property experience  
                   Use a hiring model that         Encourage individuals with prior IP experience 
                   focuses on experienced          (e.g., patent attorneys/agents and skilled 
                                                                                                                 FULL                1 
                   intellectual property (IP)      technologists) to apply for positions as patent 
                   professionals                   examiners  

2. Increase                                        Prioritize use of overtime by targeting technology 
                                                   areas with highest backlogs first, while permitting 
   Patent          Target overtime to high 
                                                   other examiners to work overtime in the targeted              FULL                2 
   Application     backlog technology areas        areas, and to work overtime in other areas as 
   Examination                                     resources permit  
   Capacity        Develop and implement a 
                                                   Expand pool of patent examiner candidates                    PARTIAL              3 
                   nationwide workforce 
                   Reduce attrition by             Retain examiner workforce through active front‐
                   developing mentoring, best      line management, mentoring, detail 
                                                                                                                 FULL                1 
                   practices, and retention        appointments, and other proactive management 
                   strategies                      efforts 
                   Contract for Patent 
                                                   Outsource examination of patent applications 
                   Cooperation Treaty (PCT)                                                                      FULL                2 
                                                   submitted to USPTO under the PCT 
                   searching 


                                                            10

 
U.S. Department of Commerce                                                                                           Final Report

Office of Inspector General                                                                                     September 29, 2011 



 
                                                                                                                                Evaluation 
                                                                                                              Implementation 
Objective                     Initiative                                 Description                                             Related 
                                                                                                                  Status 
                                                                                                                                Activities a 
                    Make more effective use            Maximize reuse potential of PCT work products by 
                                                                                                                  PARTIAL              2 
3. Improve          of the PCT                         improving their quality and timeliness.  
                    Increase use of the patent         Promote work sharing among international patent 
   Patent 
                    prosecution highway (PPH)          offices while also allowing applicants to obtain 
   Pendency                                                                                                        FULL                1 
                                                       patentability determinations faster in multiple 
   and Quality                                         jurisdictions  
   by Increasing    Explore Strategic Handling  
                                                       Give precedence to the applications filed with 
   International    of Applications for Rapid                                                                      FULL                2 
                                                       USPTO as the Office of First Filing  
   Cooperation      Examination (SHARE) 
                    Work with Trilateral Offices       Explore options for enhancing work sharing 
   and Work 
                    and IP5 to create new              between offices and to identify policy and 
   Sharing                                                                                                        PARTIAL              3 
                    efficiencies                       information technology solutions that would 
                                                       facilitate work sharing  
                    Initiate 21st century analysis, 
                                                       Identify quality measurements at each major step 
                    measurement and tracking of                                                                    FULL                1 
                                                       in the review of patent applications 
                    patent quality 
                                                       Provide technology center personnel, including 
4. Measure and      Improve and provide more           new examiners and supervisory patent examiners, 
                                                                                                                   FULL                2 
   Improve          effective training                 with specific training to improve the processing of 
   Patent                                              patent applications, manage multiple employees  
   Quality          Reformulate performance            Reformulate PAPs to align with organizational 
                                                                                                                   FULL                1 
                    appraisal plans (PAPs)             goals and strategic plan at all levels 
                    Implement and monitor 
                                                       Implement and monitor revisions made to count 
                    revisions to patent examiner                                                                   FULL                1 
                                                       system (under objective 1, first initiative)  
                    production (count) system 
                                                       Identify where the appeal and interference 
                    Develop and implement 
                                                       processes can become more efficient and 
                    process efficiency                 effective to reduce the time associated with each 
                                                                                                                  PARTIAL              1 
                    recommendations                    process  
                                                       Determine where the review of appeal briefs by 
                                                       Board of Patent Appeals and Interferences (BPAI) 
                    Streamline appeal process 
                                                       judges can be more efficient and effective; post            FULL                1 
                    and reduce appeal pendency         information on the USPTO web site to assist 
5. Improve                                             applicants  
                                                       Simplify and streamline regulations governing the 
   Appeal and 
                    Review BPAI rules to amend,        appeals process to provide BPAI with adequate 
   Postgrant                                                                                                       FULL                2 
                    simplify and optimize process      information while not unduly burdening 
   Processes                                           appellants or examiners 
                                                       Hire additional administrative patent judges (APJs) 
                    Increase BPAI capacity 
                                                       and patent attorneys (PAs) with the goal of having 
                    through additional hires and                                                                  PARTIAL              2 
                                                       each APJ supported by a PA in a chamber‐type 
                    new chambers organization          organizational structure  
                                                       Ensure through hiring criteria and performance 
                    Maintain high quality BPAI         appraisal plans that BPAI decisions are technically 
                                                                                                                   FULL                2 
                    decisions                          and legally correct; and provide training to new 
                                                       hires including APJs and their patent attorneys  
Sources: USPTO 2010–2015 Strategic Plan, September 2010; DOC OIG analysis of USPTO information.
a
  1—Data collection, reporting on a regular basis; 2—Data collection, reporting on an ad hoc basis; 3—
Initial stages of implementation, data collection and reporting not yet applicable.




                                                                11

 
U.S. Department of Commerce                                                                                                Final Report

Office of Inspector General                                                                                          September 29, 2011 



 
                                Appendix C: Response to OIG Draft Report




                                     11 -ITED STAT~ PATENT AN D TKADI!: 1A RK 0Ff'lC!E

                                           lt~DER SECRET.oR\' Of OOI'WER~ FQf< ltm\LI'C.Tl,llll, PIOC)PU U'I' Nil>
                                            Gn;.e._r;.roq Cf '1)1[1 U~D ~T,All":S PAT'C-NI" ~;~~~b lt<Afl~ o-:F~E




                                                                                           September 21. 20~ 1



             MEMORA.'lD M FOR               Ron Prevost
                                            Assistant Inspector General to!' Economic
                                            and St.at.istical l>rogrnm Assessment

             FROM:                          Anthony Scardino                      Q.v _
                                            Chief Financial Officer                 -.~if
             SUBJECT:                       Response to Draft Report: "Status of Uf:."'PTO lrlilialiw:.s to Jrnprow
                                            Patent Timelines.~ and Qua/fry (Augusr 1011)



             Executive S1•mm:ln'
             Th.ank you for your review oflhcstrutegic initiatives identified in the USPTO 201(}-2015
             Strlllegk J'lm1 to improve the quality and timeliness of patent applications. We appreciate  the
             effort you and your st.affhave made in assessing the starus of the 2.5 strategic initiatives
             dc,·cloptl(l to acbieve Goal I, ''Optimize Patent and Quality Timeliness". \Ve have carefully
             considered the t:hJ:c(: recomme,ndations made in the subject drafl report.

             .R~ ckgruund

             The USPTO is proud of the accomplishments and progress it has mad'C with its si.Tategic
             initiatives in reduci11g patent pendeocy ar1d the patent backlog. The U.'IPTO 1010-2015 StraJegic
             Plan documents the s~ necessary to make the US]YI'O more elficiem in reducing the
             unacceptably long pendency periods that p:ttent applicants face. The USPTO is commi ll.ed to
             achievin~ its goal of improving pull;nl quality and providiu.g optimal timing for obtaining a
             patent and is conlident Lhat it wi ll succeed in meeting its goal.

             Our response to each recommendation is discussed in delail below. \Ve have also provided
             detailed technical comments OLl a separate page.

             RI! ~ JJCUtse lo   Recomnu:nd ;•tinn:
             I G Recmnmendn1io11 tfurt the. U11der Sl!cretary of Commerce {ifflltellee1r10l Property rmd
             D irecwr of USPTO (1) : Revise the agency's strategic plr~n to eus\rre Lhe most critical efforts
             that support artaining the strategic patent goals remain in operBLion.


                                          P.O. Bo• 1450, AleX&ndrl3, Vl~li!        ~2l1$.1 450-'ti,\W.USl'TO.OO...




                                                                           12

 
U.S. Department of Commerce               Final Report

Office of Inspector General         September 29, 2011 



 




                              13

 
U.S. Department of Commerce                                                                                         Final Report

Office of Inspector General                                                                                   September 29, 2011 



 
                                                                   3


            USPTO Re5pon.se:
            While we gen.erally com:ur with the rcconum:ndations as Slated in !be Agency comments to this
            draft report, we would, howevc:r, like to highlight in particular thai the USP7'0 20/0-201 j
            Srraregic Pkm does in f11cl provide a mechanism for future c\•alua tions of its initiatives. ''To
            cn~ure Uuu the USPTO successfully implements clumgcs . ..initiatives dooumented in tflis plan
            may be... suQjcctcd to evaluation. Evaluation plans wi ll incorporate, where appropriace,
            mcasl!rable Qbjectives, critical measwes of success, baseline data, and conditions fo r full
            implt:m~ntaLio n ." (USPTO 1010-2015 Strategic Pkm al pngc 45). The usp·ro has given
            thoughtful consideration to !.he pecformance measures and. as you llave noted. ha.s already put
            into place many of the c.omponents for successful implementation ofthesc: ioitiutives.

            The Agency agrees to develop ~md implement evaluation plans of the patent initiatives to
            include; mcasuTable objectives and critical measures of s11CCcss, baseline data, a direct linkage
            ofme.asures 10 s£rntegic goals and conditions for full implementation. While the USPTO may
            la.c:.k a formal fmal evaluation proc~S$.. it does already have in place c~rt:~ i ll elements or
            components that cornprise an effective evaluation plan. The USI"TO 10 10-2015 Strategic Plan
            includes a Balanced Scorecard whic-h identifies ~rfonnance measur,cs which link lo wurk plans
            that have been and will conti nue Ln be monitored internally as a manngement l.uol fo r tracking
            progress in meeting t:aeh element of the plan. (Se e USPTO 2010-2015 S!rare~c Pla11 at pages
            46-48). However, the establishm~;.'Ilt of a fb rmal evaluation process will not only provide for
            continuity of operations, but more importantly. it will provide a more oomp.-cllensive appmach in
            asse.o;sing performance; determining whether or not the results from a particular initiative luwe
            been aQOOmplished; and what impact a spt:Cific initiative has on the Agency's overall siraiegic
            goals. Furthermore, these plans will help Agency mMagemcnt in making in limned dec.isions on
            bow to di rect rcsourc~s to those initiatives ha' •i.ng the gr~tc:st irnpact on aehie\~ng the Agency's
            strategic goal:;. The USPTO is committed lO improving its documentation effort and will begin
             to esLablish a formal evalUII.tion plan of the patent iniliativcs in order LO n.s~~~ the efiective11ess
            of each initialivc.

            10 Recomnumdathm that tile U11der Secri!IIU)' of Commerce oflmellectrml Prop erly fl}j(f
            Dlrl!ctor of USPTO (3): Exami11e anew the BPAI proce;5s (and the rare at which it reverses
            decisions) n!i well as the quality of PCT contrttcti n~ work.

            USPTO Response:
            The Agency ag.n:es t.o examillC anew the Bounl of Patent Appeals and llltcrferenccs (BPAI)
            procc:$S. The Agency rcc~ntly hired a new BPAl Chief Judge from the private sector. and he is
            studying all of the Board's processes, its structure, and it.'> opermions in an effort to reduce
            pendency and increase quality. The Agency note:; that the reversal rate is a function of a myriad
            of ibclurS: the evidence and fuas of ony individual case. the application of nppropriate law to
            th.ose facts by the examiners and the appellants, and Lht soundness of conclusions made, a!td the
            effectiveness of advocacy by those appcaring before tl1e Board.

            The Agency further ag~s to examine the quality of PCT contracting work with a goal of
            max]mizing reuse ofthis work in the ·examination of our national applic:.atio1K Since letting the
            contmct in 2007. the USPTO has continued its cffm1s to impr~,we lhe quality of the resulting
            product pro\'ided by the contractors. During the past ye-.ar, steps have been taken tu enhance the
            existitlg PCf contract delivernblcs, empha.<>izing the import an~ IJ f ci ting the best prior art and
            providing training and continuous feedb..'\ck to acbieve ~ucl1 improvement. As a result, the

                                      P.O. Boc 1450, Akax~nnri• Vitginla 2231:J..H50   YIM\'U5PIQ Q(W




                                                                   14

 
U.S. Department of Commerce               Final Report

Office of Inspector General         September 29, 2011 



 




                              15

 
